                  The Revised Collection Case Selection
               Criteria That Expedites Trust Fund Workload
                       to the Field Appears Effective

                                 September 2004

                       Reference Number: 2004-30-173




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                             DEPARTMENT OF THE TREASURY
                                                   WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                  September 17, 2004


      MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                     DIVISION


      FROM:                         Gordon C. Milbourn III
                                    Acting Deputy Inspector General for Audit

      SUBJECT:                      Final Audit Report - The Revised Collection Case Selection
                                    Criteria That Expedites Trust Fund Workload to the Field
                                    Appears Effective (Audit # 200330037)


      This report presents the results of our review of the Internal Revenue Service’s (IRS)
      collection case selection criteria. The overall objective of this review was to determine
      whether new Collection Field function (CFf)1 case selection criteria helped the Small
      Business/Self-Employed (SB/SE) Division meet its goal of effectively resolving
      delinquent trust fund2 accounts.
      Between Fiscal Years (FY) 1996 and 2001, the IRS Collection function’s business
      results declined, due in part to the 36 percent decrease in revenue officer3 staffing
      during the period. For example, the number of balance due tax accounts closed
      decreased and the number of accounts not being worked increased.
      In an effort to improve operations, the Commissioner, SB/SE Division, established
      teams to review Collection function operations and suggest methods for improvement.
      One team recommended changing the risk levels used to identify workload for the CFf
      to place more emphasis on assigning trust fund cases and assigning the cases earlier in
      the balance due stream. Addressing employment tax noncompliance is an operational
      priority included in the SB/SE Division’s Business Action Plan.



      1
        The CFf is the unit consisting of field employees who handle personal contacts with taxpayers to collect delinquent
      accounts or secure unfiled tax returns.
      2
        Trust fund accounts are the Federal taxes withheld from employee earnings and the employee and employer
      portions of Social Security and Medicare taxes. Trust fund tax returns are due quarterly.
      3
        A revenue officer is a CFf employee who attempts to contact taxpayers and resolve collection matters.
                                                        2

In summary, our review of a sample of closed trust fund cases and analysis of the
Collection Activity Reports (CAR)4 both showed improved business results since
FY 2001 (our baseline period and the last full fiscal year prior to implementation of the
new criteria) for the CFf. The number of trust fund cases closed increased by
42 percent, and the number of additional tax periods that accumulated (pyramided)
while cases were assigned in the CFf decreased by 17 percent. In addition, it does not
appear that this shift in CFf workload caused an adverse impact on overall Taxpayer
Delinquent Account (TDA)5 closures by the Collection function. The number of TDAs
closed, the percentage closed as fully paid, and the amount collected all increased.
These improvements appear to indicate that the change in risk level criteria for
inventory selection was successful.
However, expected impacts of the revised risk level case selection criteria were not
adequately measured. Efforts to measure the impact of the revised risk level case
selection criteria primarily involved an analysis of the CARs. These reports do not
provide results on individual reengineering efforts or effective measures for all of the
expected benefits from the efforts, such as a decrease in pyramiding. Limitations such
as these inhibit management’s ability to measure the success of reengineering efforts,
thus hampering decision-making ability when considering the impact of the
implementation of recommendations.
While there was an overall improvement in business results from FYs 2001 to 2003, a
year-to-year analysis showed that some results declined from FYs 2002 to 2003.
During FY 2003, other reengineering efforts were being implemented that could also
have affected some of the same productivity indicators as the revised risk level case
selection criteria. Without an effective process to measure the impact of individual
reengineering projects, it is not known whether the overall improvements from FY 2001
and declines during FY 2003 were attributable to the risk level criteria change,
additional reengineering recommendations that were being implemented, or other
unrelated factors. In a prior overview report on Collection Reengineering,6 we advised
management of the potential for this condition to exist.
We recommended the Commissioner, SB/SE Division, implement a process to ensure
all future reengineering and process improvement teams develop a means to measure
the impact of any recommendations.
Management’s Response: SB/SE Division management agreed with our
recommendation and plans to take corrective action. They will work with the SB/SE
Division Research function to develop a methodology to quantify the attainment of
benefits for future initiatives. Once they have the methodology, they will weigh the costs


4
  The CARs are the Collection function’s management information reports that provide information about Collection
function inventory and dispositions.
5
  A TDA is a balance due account of a taxpayer.
6
  Management Advisory Report: The Small Business/Self-Employed Division’s Collection Process Improvement
Effort Will Not Adversely Affect Internal Controls, but Potential Risks Still Exist (Reference Number 2002-30-091,
dated May 2002).
                                           3

against the potential benefits of the knowledge or information before making a decision
to pursue the evaluation. Management’s complete response to the draft report is
included as Appendix V.
Copies of this report are also being sent to IRS managers affected by the report
recommendation. Please contact me at (202) 622-6510 if you have questions or
Philip Shropshire, Acting Assistant Inspector General for Audit (Small Business and
Corporate Programs), at (215) 516-2341.
                  The Revised Collection Case Selection Criteria That Expedites
                       Trust Fund Workload to the Field Appears Effective



                                                  Table of Contents


Background ............................................................................................... Page 1
Productivity Results Showed Varying Degrees of Improvement
After Implementation of the Revised Risk Level Criteria ........................... Page 2
Impacts of the Revised Risk Level Case Selection
Criteria Are Not Adequately Measured...................................................... Page 5
         Recommendation 1: .........................................................................Page 8

Appendix I – Detailed Objective, Scope, and Methodology....................... Page 9
Appendix II – Major Contributors to This Report ....................................... Page 11
Appendix III – Report Distribution List ....................................................... Page 12
Appendix IV – Productivity Indicators for the Taxpayer Delinquent
Accounts and the Taxpayer Delinquency Investigations in the
Collection Field Function ........................................................................... Page 13
Appendix V – Management’s Response to the Draft Report ..................... Page 14
             The Revised Collection Case Selection Criteria That Expedites
                  Trust Fund Workload to the Field Appears Effective

                                 The Small Business/Self-Employed (SB/SE) Division
Background
                                 Collection function is responsible for promptly collecting
                                 the proper amount of Federal tax due from taxpayers. This
                                 includes securing tax returns that are not filed to determine
                                 the tax due. Between Fiscal Years (FY) 1996 and 2001, the
                                 Internal Revenue Service (IRS) Collection function’s
                                 business results declined, due in part to a 36 percent
                                 decrease in revenue officer1 staffing during the period. For
                                 example, the number of accounts closed decreased and the
                                 number of accounts not being worked increased. In an
                                 effort to improve operations, the Commissioner, SB/SE
                                 Division, established teams to review Collection function
                                 operations and suggest methods for improvement. These
                                 teams were commonly referred to as Collection
                                 Reengineering teams.
                                 The initial Collection Reengineering team, called the Quick
                                 Hits Reengineering Team, was convened to identify
                                 high-impact, near-term opportunities to improve Collection
                                 function business results. Any recommendations from the
                                 Team were to be compatible with other modernization
                                 efforts, not require significant system changes, and be able
                                 to be implemented within 1 year. The Team concentrated
                                 on incremental process improvements that could be
                                 accomplished in a relatively short time period without
                                 redesigning the overall process.
                                 One recommendation from the Quick Hits Reengineering
                                 Team, which was implemented early in Calendar Year 2002
                                 and is the subject of our review, involved changes to the risk
                                 level criteria used to identify workload for the Collection
                                 Field function (CFf).2 This new criteria places more
                                 emphasis on assigning trust fund3 cases and assigning them
                                 earlier in the balance due stream. Under the previous case
                                 identification criteria, tax periods accumulated until they
                                 reached a collective dollar threshold before being assigned

                                 1
                                   A revenue officer is a Collection Field function employee who
                                 attempts to contact taxpayers and resolve collection matters.
                                 2
                                   The CFf is the unit consisting of field employees who handle personal
                                 contacts with taxpayers to collect delinquent accounts or secure unfiled
                                 tax returns.
                                 3
                                   Trust fund accounts are the Federal taxes withheld from employee
                                 earnings and the employee and employer portions of Social Security and
                                 Medicare taxes. Trust fund tax returns are due quarterly.
                                                                                                 Page 1
              The Revised Collection Case Selection Criteria That Expedites
                   Trust Fund Workload to the Field Appears Effective

                                  to the CFf. Under the revised criteria, dollar threshold is
                                  determined by tax period rather than by taxpayer entity (the
                                  total of all periods due). In theory, this would allow trust
                                  fund cases to be assigned sooner, and fewer tax periods
                                  would accumulate (pyramid) before CFf intervention.
                                  Addressing employment tax noncompliance is an
                                  operational priority included in the SB/SE Division’s
                                  Business Action Plan.
                                  This review was performed through the SB/SE Division
                                  National Headquarters Offices of Payment Compliance and
                                  Centralized Workload Selection and Delivery located in
                                  New Carrollton, Maryland, during the period October 2003
                                  through June 2004. The audit was conducted in accordance
                                  with Government Auditing Standards. Detailed information
                                  on our audit objective, scope, and methodology is presented
                                  in Appendix I. Major contributors to the report are listed in
                                  Appendix II.
                                  Our review of a sample of closed trust fund cases and
Productivity Results Showed
                                  analysis of the Collection Activity Reports (CAR)4 both
Varying Degrees of
                                  showed improved business results since FY 2001 (our
Improvement After
                                  baseline period and the last full fiscal year prior to
Implementation of the Revised
                                  implementation of the new criteria) for the CFf. The
Risk Level Criteria
                                  number of trust fund Taxpayer Delinquent Accounts (TDA)5
                                  closed increased by 42 percent. In addition, the percentage
                                  of trust fund TDAs closed as fully paid and the amount
                                  collected increased, while the percentage of those closed as
                                  not collectible decreased. While there were overall
                                  productivity improvements after implementation of the new
                                  risk level criteria for inventory selection, other
                                  reengineering recommendations were being implemented at
                                  the same time that could also have affected these
                                  productivity measures.
                                  The Quick Hits Reengineering Team projected that the
                                  change in inventory selection criteria would result in an
                                  increase in case dispositions of between 4 and 25 percent
                                  and an increase in revenue of between 19 and 42 percent. It


                                  4
                                    The CARs are the Collection function’s management information
                                  reports that provide information about Collection function inventory and
                                  dispositions.
                                  5
                                    A TDA is a balance due account of a taxpayer.
                                                                                                  Page 2
The Revised Collection Case Selection Criteria That Expedites
     Trust Fund Workload to the Field Appears Effective

                    was expected that the results would occur in 1 to 1½ years
                    after implementation of the recommendation. An analysis
                    of the CARs for all types of delinquent accounts showed
                    that CFf dispositions increased by 19 percent and the
                    amount collected increased by 17 percent from FYs 2001 to
                    2003 (based on accomplishments for the last half of each
                    fiscal year).
                    Our review of the CARs for trust fund cases overall (those
                    closed by any Collection function) showed that the total
                    number of trust fund TDA closures decreased slightly (by
                    only 4 percent), but the number of accounts closed as fully
                    paid and the amount collected both increased since
                    FY 2001.
                    In addition, it does not appear that the shift in CFf workload
                    to trust fund cases adversely affected overall TDA closures
                    (for all types of taxes, including individual taxpayers). The
                    TDAs closed by all components of the Collection function
                    increased by 1 percent, accounts closed as fully paid
                    increased by 9 percent, and the amount collected increased
                    by 26 percent.
                    Case review of the TDAs closed by the CFf showed some
                    improved results
                    We reviewed a sample of 100 closed TDAs for Employer’s
                    Quarterly Federal Tax Returns (Forms 941) for each of
                    2 periods (1 period before and 1 period after the new risk
                    level criteria were implemented) and determined that
                    business results improved after the new criteria were
                    implemented.
                    Our case review showed indications of performance
                    improvements. Although not all were quantified, the
                    following performance indicators were areas in which the
                    Quick Hits Reengineering Team expected improvements.
                    The figures may not be representative of all cases since our
                    sample size was small (i.e., an abnormality could have a
                    large impact on the figures due to the small sample size).
                    However, results from our CAR analysis included in the
                    following section also show trends in similar directions.
                       •   The number of accounts that were fully paid
                           increased by 5 percent while the number of accounts
                           closed as not collectible decreased by 26 percent.
                                                                           Page 3
The Revised Collection Case Selection Criteria That Expedites
     Trust Fund Workload to the Field Appears Effective

                        •    The number of days between the first balance due
                             notice and account resolution, and the number of
                             days the case was open in the CFf, decreased by
                             3 percent and 20 percent, respectively.
                        •    The average number of hours charged per taxpayer
                             case decreased by 3 percent.
                        •    The total dollars collected increased slightly (by less
                             than 1 percent).
                    These improvements appear to indicate that the change in
                    risk level criteria for inventory selection was successful.
                    Our case review showed mixed results for the expected
                    improved performance results for pyramiding. While the
                    average number of additional tax periods that became
                    delinquent while a case was assigned in the CFf decreased
                    by 17 percent, the number of taxpayers that pyramided
                    increased by 8 percent. The decrease in the average number
                    of additional tax periods indicates that the initiative was
                    somewhat successful.
                    Analysis of the CARs showed some improved results in
                    the CFf during FY 2002 but a decline in some results
                    during FY 2003
                    We reviewed the CARs for the periods April through
                    September 2001 (baseline period prior to implementation of
                    the new criteria) and 2002 (after the new criteria were
                    implemented) to determine the changes in productivity
                    indicators. We also reviewed the CARs for the period April
                    through September 2003 to get more current information.
                    While there was overall improvement in business results for
                    the period, some results showed a decline during FY 2003.
                    Figure 1 shows the year-to-year change for some business
                    results for the CFf TDAs and Taxpayer Delinquency
                    Investigations (TDI)6 from FYs 2001 to 2003 and the overall
                    change from FYs 2001 to 2003, based on our analysis of the
                    CARs. See Appendix IV for additional details and for
                    productivity indicators on CFf trust fund cases.


                    6
                     A TDI is an account in which it appears a tax return has not been filed
                    by a taxpayer.
                                                                                     Page 4
              The Revised Collection Case Selection Criteria That Expedites
                   Trust Fund Workload to the Field Appears Effective

                                   Figure 1: Key SB/SE Division Productivity Indicators for the CFf
                                     TDAs and TDIs, Shown As a Percentage Increase or Decrease
                                                                       Change      Change     Change
                                  Productivity Indicator               FY01-02     FY02-03    FY01-03

                                  TDAs
                                   Account Full Paid                      21.91%    -4.74%      16.13%
                                   Account Currently Not Collectible     -17.13%     8.38%     -10.18%
                                   Total Cases Closed                      5.24%    13.40%      19.35%
                                   Total Amount Collected                  6.19%     9.98%      16.78%
                                   Average Weeks in Function             -15.06%     0.05%     -15.02%
                                   Average Tax Periods per Taxpayer       -1.77%     3.83%       2.00%

                                  TDIs
                                   Return Secured                         10.08%    -14.44%     -5.82%
                                   No Longer Liable                      -15.58%     -6.64%    -21.18%
                                   Unable to Locate                      -20.47%     61.10%     28.12%
                                  Source: Treasury Inspector General for Tax Administration analysis of
                                  the CARs 5000-2 and 4. All calculations were performed using the
                                  actual numbers rather than the rounded numbers that appear in this
                                  report.

                                  Figure 1 shows that some productivity indicators for the
                                  TDAs improved each year from FYs 2001 to 2003, while
                                  other indicators showed a decline from FYs 2002 to 2003.
                                  For example, the percentage change for Total Cases Closed
                                  and Total Amount Collected improved each year. Other
                                  indicators such as Account Full Paid, Account Currently
                                  Not Collectible, Average Weeks in Function, and Average
                                  Tax Periods per Taxpayer (an indication of pyramiding)
                                  showed an improvement from FYs 2001 to 2002 but then
                                  declined during FY 2003. Likewise, productivity indicators
                                  for the TDIs, such as the percentage of cases closed with a
                                  Return Secured or Unable to Locate, showed an initial
                                  improvement, but then declined during FY 2003.
                                  As shown in Figure 1, there were overall improvements in
Impacts of the Revised Risk
                                  key SB/SE Division productivity indicators from FYs 2001
Level Case Selection Criteria
                                  to 2003, but many of the improvements were entirely
Are Not Adequately Measured
                                  attributable to FY 2002. Some indicators showed a decline
                                  during FY 2003. It is unclear what caused these declines
                                  since the impacts of the revised risk level case selection
                                  criteria are not effectively measured. Without an effective
                                  process to measure the impact of individual reengineering
                                  projects, it is not known whether the overall improvements
                                  from FY 2001 and declines in FY 2003 were attributable to
                                  the risk level criteria change, additional reengineering
                                                                                                Page 5
The Revised Collection Case Selection Criteria That Expedites
     Trust Fund Workload to the Field Appears Effective

                    recommendations that were being implemented, or other
                    unrelated factors.
                    Other reengineering efforts were being implemented during
                    FY 2003 that could also have affected some of the same
                    productivity indicators. We recently reviewed one of these
                    other reengineering efforts7 that involved the use of a model
                    to predict the collectibility potential of incoming cases. In
                    that review, we also reported that SB/SE Division
                    management did not have an adequate method to measure
                    the results of the Collection Reengineering team’s
                    recommendation. Without an adequate method to measure
                    the results of the recommendation, it is not known whether
                    this reengineering effort contributed to some of the decline
                    in productivity indicators noted above or if the decline was
                    due to other factors.
                    In an overview report on Collection Reengineering,8 we
                    advised that management would have difficulty determining
                    whether any productivity gains were attributable uniquely
                    and directly to recommendations from the various
                    reengineering efforts, the increase in resources spent on
                    collection activities, or other factors. It would also be
                    possible that the overall results show an improvement in the
                    measures, but one or more of the recommendations could
                    actually have a negative impact. The decline in some
                    productivity indicators during FY 2003 when other
                    reengineering recommendations were being implemented
                    demonstrates that this potential exists.
                    The Government Accountability Office’s (formerly the
                    General Accounting Office) reengineering and process
                    improvement guidelines9 provide for performance
                    measurement of a new process to determine if it is achieving
                    the desired results. In addition, agencies should use


                    7
                      The New Risk-Based Collection Initiative Has the Potential to Increase
                    Revenue and Improve Future Collection Design Enhancements
                    (Reference Number 2004-30-165, dated September 2004).
                    8
                      Management Advisory Report: The Small Business/Self-Employed
                    Division’s Collection Process Improvement Effort Will Not Adversely
                    Affect Internal Controls, but Potential Risks Still Exist (Reference
                    Number 2002-30-091, dated May 2002).
                    9
                      Business Process Reengineering Assessment Guide
                    (GAO/AIMD-10.1.15, dated May 1997).
                                                                                    Page 6
The Revised Collection Case Selection Criteria That Expedites
     Trust Fund Workload to the Field Appears Effective

                    performance measurement as a feedback loop for
                    continuously improving the process.
                    As stated previously, the Quick Hits Reengineering Team
                    established expected impacts from implementation of the
                    revised criteria but did not develop a means to measure
                    them. The Collection Reengineering executive advised that
                    a request was submitted for a study to measure the impact of
                    the various reengineering efforts. However, the study was
                    not funded. The following efforts, also requested by
                    management, were attempts to measure the impact of the
                    revised collection case selection criteria with existing
                    resources:
                         •   During FY 2002, prior to implementation of other
                             reengineering initiatives, there was an analysis of the
                             impact of the inventory selection criteria change
                             using information from the CARs and other
                             management information. That analysis concluded
                             that all productivity drivers demonstrate strong
                             positive results for the TDAs and show positive
                             results for the TDIs. The report acknowledged that
                             the true impact would probably not be known until
                             subsequent fiscal years. The reports prepared from
                             this effort cover FY 2002 only.
                     •       During FY 2003, the Office of Program Evaluation
                             and Risk Analysis (OPERA)10 started to review the
                             revised risk level impact. In an interim report
                             showing the results of the CAR analysis, the
                             OPERA concluded that Quick Hits Collection
                             Reengineering resulted in some positive outcomes.
                             It is currently conducting additional research in the
                             CFf and intends to perform a review of case
                             information from inventory systems to provide a
                             more detailed review of the impact of the
                             reengineering effort. The project will be closed with
                             issuance of the final report.
                    While these efforts provide some indication of the impact of
                    the revised selection criteria, they do not isolate the impact
                    of the revised risk level criteria from other reengineering

                    10
                      The OPERA is an IRS function that provides management with an
                    analysis of ongoing and proposed programs.
                                                                               Page 7
The Revised Collection Case Selection Criteria That Expedites
     Trust Fund Workload to the Field Appears Effective

                    recommendations being implemented almost simultaneously
                    or provide for continuous feedback of the results. The
                    efforts were primarily an analysis of the CARs. In addition
                    to not providing results on individual reengineering efforts,
                    the CARs do not include effective measures for all of the
                    expected benefits from the efforts. For example,
                    information on pyramiding or the amount of time a
                    taxpayer’s account has been in balance due status, which
                    were expected to improve after the revised inventory
                    selection criteria was implemented, are not available
                    through the CAR analysis. Limitations such as these inhibit
                    management’s ability to measure the success of
                    reengineering efforts, thus hampering decision-making
                    ability when considering the impact of the
                    recommendations.
                    Recommendation

                    1. The Commissioner, SB/SE Division, should implement
                       a process to ensure future reengineering and process
                       improvement teams develop a means to measure the
                       impact and report on the attainment of expected benefits
                       of the recommendations being implemented. All
                       proposed benefits of the recommendations, regardless of
                       whether they are specifically quantified by the team,
                       should be included in the measurement process. The
                       process should include a feedback loop, providing
                       effective information on the results for management’s
                       use to adjust the recommendations for increased impact.
                    Management’s Response: SB/SE Division management
                    will work with the SB/SE Division Research function to
                    develop a methodology to quantify the attainment of
                    benefits for future initiatives. Once they have the
                    methodology, they will weigh the costs against the potential
                    benefits of the knowledge or information before making a
                    decision to pursue the evaluation.




                                                                          Page 8
                  The Revised Collection Case Selection Criteria That Expedites
                       Trust Fund Workload to the Field Appears Effective

                                                                                                     Appendix I


                          Detailed Objective, Scope, and Methodology

The overall objective was to determine whether new Collection Field function (CFf)1 case
selection criteria helped the Small Business/Self-Employed (SB/SE) Division meet its goal of
effectively resolving delinquent trust fund2 accounts. To accomplish this objective, we:
I.       Determined if cases closed that were identified for assignment under the revised selection
         criteria resulted in improved business results over the baseline cases.
         A. Identified two random samples of closed cases – one for cases created prior to
            implementation of the revised case selection criteria (baseline sample) and another for
            cases created after the criteria were implemented (new sample).
             The baseline sample consisted of taxpayer cases for which at least one tax period was
             created (assigned to the CFf) between April 1, 2001, and September 30, 2001
             (inclusive), and the tax periods were closed by September 30, 2002. We eliminated
             taxpayer cases purged during the inventory conversion process. The new sample
             consisted of taxpayer cases for which at least one tax period was created between
             April 1, 2002, and September 30, 2002 (inclusive), and the tax periods were closed by
             September 30, 2003.
             Based on the items being measured (see step I.B.), we used random sampling for
             variables, and the sample sizes were calculated based on universes of 112,475 tax
             periods for the baseline sample period and 205,091 tax periods for the new sample
             period. Based on a confidence level of 95 percent and variability of 75 percent, the
             sample sizes were calculated to be 858 and 861 tax periods, respectively. After
             reviewing the first 50 cases in each category, we recalculated the sample sizes. The
             updated sample sizes for the items being measured varied from 943 to 12,078 tax
             periods for the current period cases. We determined it would not be possible to
             review that volume of cases. Therefore, we decided to review another 50 cases in
             each category then stop, as long as the trends identified from the first 50 cases
             continued for the subsequent 50 cases. Our final sample size was 100 cases from
             each universe.




1
  The CFf is the unit consisting of field employees who handle personal contacts with taxpayers to collect delinquent
accounts or secure unfiled tax returns.
2
  Trust fund accounts are the Federal taxes withheld from employee earnings and the employee and employer
portions of Social Security and Medicare taxes. Trust fund tax returns are due quarterly.


                                                                                                            Page 9
                  The Revised Collection Case Selection Criteria That Expedites
                       Trust Fund Workload to the Field Appears Effective

         B. Obtained Master File3 transcripts for the random samples to determine:
                  1. The type of case closure (fully paid, currently not collectible, installment
                     agreement, bankruptcy, etc.).
                  2. The number of days the case was in balance due status until closure.
                  3. Whether additional tax periods became delinquent for the Taxpayer
                     Delinquent Accounts (TDA)4 or the Taxpayer Delinquency Investigations
                     (TDI)5 after the initial case had been assigned to a revenue officer (RO)6 for
                     more than 90 days.
                  4. Dollars collected while the case was in TDA status.
         C. Determined if younger cases were being delivered to the field after the new criteria
            were implemented by stratifying the field cases by tax year and determining the
            number of tax periods per taxpayer.
         D. Determined the number of hours charged to the case while assigned to the RO.
II.      Determined if SB/SE Division information indicated that changes to business results
         occurred and if the changes could be attributed to the new case selection criteria.
         A. Determined how the SB/SE Division was measuring the impact of the change in case
            selection criteria.
         B. Obtained and compared the results being accumulated by internal reviews of the new
            case selection criteria to the results identified in our review.
         C. Analyzed the Collection Activity Reports7 5000-2 and 4 for a baseline and current
            periods to determine the overall changes in business results.




3
  The Master File is the Internal Revenue Service database that stores various types of taxpayer account information.
This database includes individual, business, and employee plans and exempt organizations data.
4
  A TDA is a balance due account of a taxpayer.
5
  A TDI is an account for which it appears a tax return has not been filed by a taxpayer.
6
  An RO is a CFf employee who attempts to contact taxpayers and resolve collection matters.
7
  The Collection Activity Reports are the Collection function’s management information reports that provide
information about Collection function inventory and dispositions.




                                                                                                            Page 10
              The Revised Collection Case Selection Criteria That Expedites
                   Trust Fund Workload to the Field Appears Effective

                                                                                  Appendix II


                           Major Contributors to This Report

Philip Shropshire, Acting Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Parker F. Pearson, Director
Amy L. Coleman, Audit Manager
Joseph P. Snyder, Lead Auditor
Timothy A. Chriest, Senior Auditor




                                                                                       Page 11
              The Revised Collection Case Selection Criteria That Expedites
                   Trust Fund Workload to the Field Appears Effective

                                                                               Appendix III


                                    Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Acting Director, Compliance, Small Business/Self-Employed Division SE:S:C
Acting Deputy Director, Compliance Policy, Small Business/Self-Employed Division
SE:S:C:CP
Director, Strategy, Research, and Performance Management, Small Business/Self-Employed
Division SE:S:SRM:SR
Director, Centralized Workload Selection and Delivery, Small Business/Self-Employed Division
SE:S:C:CP:CW
Director, Filing and Campus Compliance, Small Business/Self-Employed Division
SE:S:C:CP:FC
Director, Payment Compliance, Small Business/Self-Employed Division SE:S:C:CP:PC
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                     Page 12
                   The Revised Collection Case Selection Criteria That Expedites
                        Trust Fund Workload to the Field Appears Effective

                                                                                                   Appendix IV


          Productivity Indicators for the Taxpayer Delinquent Accounts1 and the
          Taxpayer Delinquency Investigations2 in the Collection Field Function3

                                                     All Tax Types                    Trust Fund Taxes
                                             Change      Change      Change       Change      Change      Change
Productivity Indicator                       FY01-02     FY02-03     FY01-03      FY01-02     FY02-03     FY01-03


Taxpayer Delinquent Accounts

    Dispositions
      Account Full Paid                         21.91%      -4.74%      16.13%      12.58%      -6.51%       5.25%
      Installment Agreement Resolution          18.85%      19.82%      42.41%      27.40%      24.64%      58.79%
      Account Currently Not Collectible        -17.13%       8.38%     -10.18%     -15.69%       9.34%      -7.82%
      Total Cases Closed                         5.24%      13.40%      19.35%      24.56%      14.24%      42.30%

      Total Amount Collected                     6.19%       9.98%      16.78%      17.67%       2.29%      20.36%

    Cycle Time
     Average Cycles (Weeks) in Function        -15.06%       0.05%     -15.02%     -13.73%       3.22%     -10.95%

    Taxpayer Inventory
      Accounts with 1 Tax Period                 1.90%      -0.98%       0.92%       7.85%      -1.13%       6.72%
      Accounts with 2 to 3 Tax Periods           0.53%      -0.34%       0.20%       2.67%      -0.46%       2.21%
      Accounts with 4 or more Tax Periods       -0.44%      -0.21%      -0.65%      -0.14%      -0.25%      -0.39%

      Average Tax Periods per Taxpayer          -1.77%       3.83%       2.00%     -13.05%       3.81%      -9.74%


Taxpayer Delinquency Investigations

    Dispositions
      Return Secured                            10.08%     -14.44%      -5.82%      14.33%      -8.77%       4.30%
      No Longer Liable                         -15.58%      -6.64%     -21.18%     -18.08%      -2.71%     -20.30%
      Unable to Locate                         -20.47%      61.10%      28.12%     -30.14%      -2.24%     -31.70%
Source: Treasury Inspector General for Tax Administration analysis of the Collection Activity Reports4 5000-2
and 4. All calculations were performed using the actual numbers rather than the rounded numbers that appear in
this report.


1
  The Taxpayer Delinquent Accounts are balance due accounts of a taxpayer.
2
  The Taxpayer Delinquency Investigations are accounts in which it appears a tax return has not been filed by a
taxpayer.
3
  The Collection Field function is the unit consisting of field employees who handle personal contacts with taxpayers
to collect delinquent accounts or secure unfiled tax returns.
4
  The Collection Activity Reports are the Collection function’s management information reports that provide
information about Collection function inventory and dispositions.
                                                                                                            Page 13
The Revised Collection Case Selection Criteria That Expedites
     Trust Fund Workload to the Field Appears Effective

                                                                Appendix V


      Management’s Response to the Draft Report




                                                                    Page 14
The Revised Collection Case Selection Criteria That Expedites
     Trust Fund Workload to the Field Appears Effective




                                                                Page 15
